<html>
<title> - ROUNDTABLE ON COMPETITIVENESS: BUILDING AND FILLING THE PIPELINE</title>
<body><pre>[Senate Hearing 109-426]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-426
 
    ROUNDTABLE ON COMPETITIVENESS: BUILDING AND FILLING THE PIPELINE

=======================================================================

                                HEARING

                                 OF THE

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

       EXAMINING THE ROLE OF EDUCATION IN GLOBAL COMPETITIVENESS

                               __________

                           FEBRUARY 16, 2006

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions













                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-255                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001










          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman
JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
WILLIAM H. FRIST, Tennessee          CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS, Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel





















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                      THURSDAY, FEBRUARY 16, 2006

                                                                   Page

Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Riddile, Mel, Ph.D., principal, J.E.B. Stuart High School, 
  Fairfax County Public Schools, Falls Church, VA................     5
Willner, Robin, vice president, IBM Global Community Initiatives, 
  Armonk, NY.....................................................     5
Varner, Edna, former principal, Hamilton County Schools, 
  Chattanooga, TN................................................     6
Ajax, Erick, vice president, E.J. Ajax and Sons, Inc., 
  Minneapolis, MN................................................     7
Bzdack, Michael, Ph.D., director of corporate contributions, 
  Johnson and Johnson, Inc., New Brunswick, NJ...................     8
Day, Sandra, magnet school administrator, Omaha Public Schools, 
  NE.............................................................     9
Langston, Carrie, teacher, Wyoming Writing Project, Chugwater, WY    10
    Prepared statement...........................................    11
Schwarz, Eric, president and CEO, Citizen Schools, Boston, MA....    12
Bailey, Bob, National Science Foundation, grant project manager, 
  Central Virginia Community College, Lynchburg, VA..............    13
Freeney, Reygan, a doctoral candidate, University of Iowa, Iowa 
  City, IA.......................................................    14
Layzell, Tom, Ph.D., president, Council of Postsecondary 
  Education, Frankfort, KY.......................................    15
Morningstar, Mary, Ph.D., associate professor, University of 
  Kansas, Department of Special Education, Lawrence, KS..........    17
Shelton, Jim, executive director, Education Division, Bill and 
  Melinda Gates Foundation, Washington, DC.......................    19
Brooks-Crocker, Wanda, NDE certification administrator, 
  Framatome, ANP, Inc., and Areva and Siemens Company, Lynchburg, 
  VA.............................................................    20

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Prepared statement of Senator Kennedy........................    35
    Letter from the Kentucky Council on Postsecondary Education, 
      Thomas Layzell.............................................    36

















    ROUNDTABLE ON COMPETITIVENESS: BUILDING AND FILLING THE PIPELINE

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2006

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
Room SD-G50, Dirksen Senate Office Building, Hon. Michael B. 
Enzi [chairman of the committee] presiding.
    Present: Senators Enzi, Alexander, and Ensign.

                   Opening Statement of Chairman Enzi

    The Chairman. Good morning. I am going to go ahead and 
start. We will have a little interruption around 10:30 for a 
vote. We will try and keep the roundtable going and gathering 
the information.
    I want to thank Ranking Member Senator Kennedy for his 
participation and availability and allowing this kind of a new 
system of gathering information, which is a roundtable. 
Normally, we have hearings, and sometimes hearings become very 
divisive. They are designed that way. We are having a 
roundtable, which we think is designed to gather information. 
We don't think we are unique, but we are unusual in that we try 
and gather information before we do a bill.
    [Laughter.]
    So I would like to welcome you to today's roundtable, which 
is on competitiveness, which is building and filling the 
pipeline. We have already made some provisions for college, but 
we are very worried about birth through 12th grade. We have a 
Head Start bill that has already passed committee that will 
take care of some of the birth to kindergarten, but we are very 
concerned about the kindergarten through 12th grade. We are 
even concerned about the complacency among Americans, thinking 
that maybe we are okay in those areas. So we are very fortunate 
today to have this outstanding group of individuals to talk to 
us about high school as a critical piece of the competitiveness 
pipeline.
    Last week, the HELP Committee kicked off its consideration 
of the competitiveness agenda with the Secretary of Education, 
Margaret Spellings, and she talked about the President's 
American Competitiveness Initiative and the critical role that 
education plays in addressing the challenges of a global 
economy. We all know that knowledge is the key to our ability 
to compete and lead. She emphasized the need to support 
creativity and entrepreneurial talent while making high schools 
more rigorous. Teachers must be prepared to help students 
achieve.
    She used the word ``pocket protector skills'' that will 
ensure that America's students are the best in the world, that 
they speak the language of success and that, as an economy, we 
get more than a passing grade. As the Senator's only 
accountant, I look forward to pocket protectors being cool-- 
[laughter]--which my kids assure me they never were.
    Throughout the discussion with Secretary Spellings, one 
theme consistently emerged, and that is unless more students 
complete high school on time, prepared for postsecondary 
education or the workforce, we won't have enough people in the 
pipeline to take the challenging and rigorous coursework that 
will produce the mathematicians, the scientists, the engineers, 
the technicians, or the researchers that we need.
    By 2010, two-thirds of the 7 million worker gap will be a 
skilled worker shortage. That is unacceptable. Without an 
educated workforce, we will certainly lose our preeminence in 
the world to developing nations that are quickly growing, 
educating their citizens, and innovating at a much faster rate 
than we are. A student who takes just one remedial reading 
course in college is eight times less likely to graduate than a 
student who is fully prepared for college. At a time when most 
jobs will require some postsecondary education, we have to 
focus on how to graduate more students on time with less need 
to repeat basic reading and math courses and a greater 
likelihood of success in college and the workplace.
    To be competitive in a global economy, we must ensure 
coordination and accountability in our education and workforce 
programs across all the agencies, departments, and levels of 
government, and it goes across 207 programs and 13 different 
agencies. We must ensure that everyone has an opportunity to 
achieve academically and achieve the critical skills they need 
to succeed regardless of their background.
    To stay in the competitiveness race and to win it, we must 
ensure that school is never out and learning is never over.
    It is no secret that institutions of higher education and 
employers have expressed their dissatisfaction with the level 
of preparation of our high school graduates and their need for 
remediation in order to do college work or to participate in 
the workforce. Each year, taxpayers pay in excess of $1 billion 
to provide remedial education to students at our public 
universities and community colleges. Businesses report spending 
even more to address the lack of literacy and basic skills of 
our entry-level workers.
    Let me share a few facts that speak to the seriousness of 
the issue. American 15-year-olds rank 24th out of the 29 
developed nations in mathematics, literacy, and problem solving 
on the most recent international assessment. Reading 
proficiency among 12th graders has declined to the point where 
just over one-third of them are even considered proficient 
readers. Nearly one-third of entering college freshmen need at 
least one remedial course. The United States has the highest 
college enrollment rates, but a college completion rate lower 
than most developed countries in the world.
    And in this decade, 40 percent of job growth will be in 
jobs requiring postsecondary education, with those jobs 
requiring associate degrees growing the fastest. Eighty percent 
of jobs require postsecondary education or the equivalent, yet 
only 52 percent of Americans over the age of 25 have achieved 
that level of education, which leads us to why we are here 
today.
    We are here to listen and learn from the participants about 
what is working in our high schools, about how secondary and 
postsecondary partnerships can be strengthened, and about how 
our students can be better prepared for the challenges and 
opportunities they have beyond high school. By taking this 
opportunity to strengthen and focus our education and our 
training systems on ensuring the knowledge and skills that we 
as individuals and the Nation need, we are assuring that 
America's students will be the best in the world. They are. We 
want that to continue. We want them to speak the language of 
success, and we want our country to get more than a passing 
grade.
    I want to thank all of you for being here today, your 
willingness to share your experiences and your insight. We have 
a rather limited forum. We want to get a lot of information. In 
fact, we want to get more information from you than you will be 
able to give during this forum, so I want to remind you that as 
people are making comments, feel free to make some notes and 
share those with us later, as well. We will keep the record 
open for 10 days for additional thoughts that you might have.
    We want this to be the beginning of the stimulation of 
ideas, not the end of all. There may be some questions that 
come as a result. We have a number of staff people from people 
on the committee and they may have some questions that they 
would like to follow up on in regard to answers that you have 
given, and I would hope that you would participate that way, as 
well. That is the way that we can get the most out of the 
limited time that we have to be able to do these things.
    We will have Senator Kennedy give a statement when he is 
here. We will interrupt the proceedings to do that.
    I mentioned this is a roundtable format, so it allows a 
little more discussion than a typical Senate hearing. The 
purpose of the roundtable is to hear the variety of viewpoints 
on the roles of schools, institutions of higher education, 
businesses building the pipeline of educated and skilled 
workers.
    Now, we have requested that participants not make any 
official oral opening statements. We will be happy to have the 
opening statements in written form to make a part of the record 
today and we will review all of those, but that saves a lot of 
time, and as you are commenting on these things, as concise as 
you can be on it will allow more viewpoints, as well.
    If any of you would like to answer a question or comment on 
one made by your colleagues, if you would stand your name tag 
on its side, my staff will try and help keep track of the order 
in which those happen so that we can get to them in order. 
Again, we do request that you limit your statement or your 
responses and would hope that those would stay under 2 minutes.
    I will begin with the introduction of witnesses. Again, I 
feel extremely fortunate that you have been willing to take the 
time out of your day and your careers to be able to do this. 
All of you are experts in your respective areas. I will go 
through the participants in alphabetical order.
    We have Erick Ajax, the Vice President of E.J. Ajax and 
Sons, Inc., of Minneapolis, Minnesota.
    Bob Bailey, the National Science Foundation Grant Project 
Manager of Central Virginia Community College in Lynchburg, 
Virginia.
    We have Wanda Brooks-Crocker, the NDE Certification 
Administrator for Framatome ANP, Inc., an AREVA and Siemens 
Company, of Lynchburg, Virginia.
    We have Michael Bzdack, Ph.D., Director of Corporate 
Contributions of Johnson and Johnson, Inc., New Brunswick, New 
Jersey.
    We have Sandy Day, the Magnet School Administrator of the 
Omaha Public Schools in Omaha, Nebraska.
    We have Reygan Freeney, a doctoral candidate, University of 
Iowa, Iowa City, Iowa, a former Upward Bound math-science 
teacher.
    Carrie Langston is very special to me. She is a Wyoming 
Writing Project teacher from Chugwater, Wyoming. How many here 
know where Chugwater, Wyoming is?
    [Laughter.]
    It is not our biggest city, but I would like to take a 
moment to do a special welcome to Ms. Langston. My daughter was 
the principal of Chugwater School, so I have heard a lot about 
the good work that is being done there and I welcome and thank 
you for being with us today.
    We have Mr. Tom Layzell, also a Ph.D., President of the 
Council of Postsecondary Education from Frankfort, Kentucky.
    Mary Morningstar, also a doctor, Associate Professor, 
University of Kansas, Department of Special Education in 
Lawrence, Kansas.
    We have Mel Riddile, a doctor, Principal of the J.E.B. 
Stuart High School in Fairfax County Public Schools from Falls 
Church, Virginia.
    Eric Schwarz, the President and CEO of Citizen Schools in 
Boston, Massachusetts.
    We have Jim Shelton, the Executive Director of the 
Education Division of the Bill and Melinda Gates Foundation in 
Washington, DC.
    We have Edna Varner, the former Principal of Hamilton 
County Schools in Chattanooga, Tennessee.
    And we have Robin Willner, the Vice President of IBM Global 
Community Initiatives in Armonk, New York. IBM has Transition 
to Teaching initiatives in North Carolina and New York.
    We are pleased at the start of the roundtable to also have 
Senator Ensign and Senator Alexander. Do either of you want to 
make a quick comment?
    Senator Ensign. I am pleased to be here.
    The Chairman. Likewise.
    [Laughter.]
    As I mentioned in my opening remarks, we will be following 
up on the role of education in global economy. We provided two 
questions for you to consider that will help us frame today's 
conversation, and today we want to focus specifically on high 
school and what needs to be done to increase high school 
graduation, preparedness for postsecondary education, and to 
decrease the need for remediation.
    The first question that we asked was, what are some of the 
strategies that have been proven effective at helping all 
students complete high school with the knowledge and skills 
needed to pursue postsecondary education and enter the 21st 
century workforce? With all of this talent here--Dr. Riddile.

STATEMENT OF MEL RIDDILE, PH.D., PRINCIPAL, J.E.B. STUART HIGH 
    SCHOOL, FAIRFAX COUNTY PUBLIC SCHOOLS, FALLS CHURCH, VA

    Mr. Riddile. I am a high school principal and I am not shy.
    [Laughter.]
    In terms of competitiveness on an international level, I 
could say that our school, despite having 70 percent of our 
students speak English as a second language, high levels of 
poverty, mobility, and all the risk factors, including gang 
activity in our area, our students consistently out-perform 
students on international tests as measured by the 
International Baccalaureate Program. Our students exceed 80 
percent pass rates, and the international average is about 70 
percent and those students go to selective schools, private 
schools around the country--I mean, around the world.
    We do that in a simple way. We said to the President when 
he visited and delivered his high school reform speech at our 
school last year, we spell hope ``R-E-A-D.'' The great 
equalizer, and I think the key to raise achievement levels of 
our students is to emphasize literacy K through 12. It is not 
just a high school issue, it is an issue for all students in 
all grades.
    Literacy actually helps students perform consistently 
higher on standardized tests and gives them the ability to do 
just about anything in our school. If you look at students who 
aren't performing, they consistently have low reading levels. 
If we want to continue to perpetuate a servant class in our 
society, all we have to do is continue to do what we have been 
doing, and that is stop teaching reading at the 3rd grade and 
that will ensure that we have students falling through the 
cracks or falling off the bus or whatever way you want to 
describe it.
    So I would say that if you look at our ELL students, our 
special education students, our emphasize on literacy enables 
them to perform and consistently out-perform other students on 
State and national tests.
    The Chairman. Ms. Willner.

    STATEMENT OF ROBIN WILLNER, VICE PRESIDENT, IBM GLOBAL 
               COMMUNITY INITIATIVES, ARMONK, NY

    Ms. Willner. Good morning. First of all, thank you for 
having us here. This, I know, is going to be an exciting 
conversation.
    Clearly, reading is important, but as you mentioned before, 
math and science, engineering, the stem careers are critical 
for preparing an innovation society. I know that everyone here 
in the Senate and in Congress has been hearing from business. 
IBM was privileged to bring the National Innovation Initiative 
forward last year and you have been hearing about our concerns.
    At IBM, we wanted to also be part of the solution and we 
started Transition to Teaching, which you mentioned earlier. We 
are investing in IBM-ers to encourage them to consider second 
careers as teachers. We will only have great high schools when 
we have great teachers, and that takes investment, that takes 
preparation.
    At IBM, we have thousands of people who have those pocket 
protector skills. We want to make sure that they also take all 
the skills they learned in coaching and leading teams and being 
adventurers, learn how to be great teachers and go into our 
schools. So we are providing financial incentives, $15,000 per 
participant to cover their tuition, their related costs, and 
also to give them a stipend. We want IBM-ers to take up to 4 
months of a leave of absence and really go into schools, spend 
time teaching, so that when they are ready to become a full-
time teacher and be the only adult in that room responsible, 
they are going to be prepared, they are going to be terrific, 
they are going to know their match and science, and they are 
going to know how to teach.
    So we just launched this initiative and we are very excited 
about the opportunity to be working all over the country. We 
actually are focusing on New York and North Carolina, where we 
have a large number of folks, but we do have applicants from 
Tennessee. We do have applicants from Texas, Minnesota, 
Vermont, you know, IBM is everywhere in this country and we 
have folks who would love to become teachers everywhere in this 
country.
    The Chairman. Thank you.
    Ms. Varner.

  STATEMENT OF EDNA VARNER, FORMER PRINCIPAL, HAMILTON COUNTY 
                    SCHOOLS, CHATTANOOGA, TN

    Ms. Varner. When I was introduced, I was introduced as the 
former high school principal, and that is true, but I do want 
you to know I am not out to pasture.
    [Laughter.]
    Currently, I am working with principals. I am an advisor to 
the Hamilton County School District and Public Education 
Foundation, and I also work as a Leadership Associate with the 
National Literacy Initiative.
    We also want high expectations for students, but in our 
district, what we found is that while we all really believe in 
high expectations for students, we had different definitions of 
``high'' for different students. We actually had different 
ceilings for different students and we were working hard to 
help them reach those different high expectations.
    One of the most important things we have done, and it has 
been difficult, is that we decided 2 years ago to have a single 
diploma and a single set of graduation requirements. If you 
look at the Web site, it will say a single path, but it is not 
a single path at all. It is really many paths to a single 
diploma, and what that diploma offers is not just postsecondary 
education, but that diploma is designed to make sure students 
are eligible for all of the opportunities available to them, 
and for some of them, that is going on to a 4-year college. For 
some, it is going on to a 2-year college. For some, it is going 
on to the workforce and continuing to learn. For some, it is 
going to the military. But the goal is to have them graduate 
eligible for every opportunity possible.
    Now, that is a tall order for a district, and the work we 
have been doing since our board passed that, and like I said, 
that was difficult because our students have struggled even 
with the different ceilings and the greatest fear was that our 
struggling students will struggle even more if we raise the 
bar. Well, that is not what is happening. What is happening is 
what many of us have always believed, and that is that 
struggling students want rigor, too, but they need to know the 
skills that will help them to be successful even when the 
curriculum is more rigorous.
    So what we have been about the business of doing is working 
through four goals. One of those is personalization, and we 
started this with a grant from the Carnegie Foundation to 
redesign our high schools. One of them is personalization, and 
it is not just becoming buddies with students. There is a 
reason for getting to know students, and it is getting to know 
what students need in order to succeed with a rigorous 
curriculum.
    Then the other goal is flexibility, and that is trying to 
make sure our schools fit the needs of students instead of 
trying to make students fit the needs of schools.
    The other is rigorous curriculum and understanding what 
rigor really means, and what rigor means when you want to 
graduate all students eligible for all of the opportunities 
available to them.
    And then the other is professional learning, because it 
requires a different kind of teacher, a different kind of 
principal, and a different kind of school district to graduate 
students who are eligible for all of the opportunities 
available to them.
    The Chairman. Thank you.
    Mr. Ajax.

STATEMENT OF ERICK AJAX, VICE PRESIDENT OF E.J. AJAX AND SONS, 
                     INC., MINNEAPOLIS, MN

    Mr. Ajax. Thank you, Senator Enzi. I am pleased to be here 
this morning. I am a manufacturer. I hire the people that come 
out of our educational institutions, and I have to say that our 
world in manufacturing is simply getting rocked with intense 
global competition and India and China, Internet auctions on an 
ongoing basis, a low-cost race to the bottom. But I am happy to 
say that we are winning.
    It is something that our employees--we have added 25 
percent growth to our employees in the last year. We have been 
able to put down the best month in the 60-year history of our 
company. For the last 15 years, we have invested 5 percent of 
our total payroll in professional development and education of 
each and every one of our employees. We continually have to 
reinvent ourselves as our competition changes. And we really 
believe that it is a lifelong cycle of learning and continual 
improvement.
    We really think Minnesota has a unique program where the 
private sector started a $1.5 billion endowment fund and a 
foundation to fund early childhood development to help 
subsidize our Head Start program. We have 20,000 low-income 
students, or not students, but children that simply only about 
10,000 are those are funded by the Head Start program. This 
endowment, when we have it fully funded, will have 100 percent 
participation.
    We believe in involvement with the business community and 
our colleges. We have had some phenomenal partnerships that we 
have been able to develop with the Minnesota Department of 
Labor and Industry and have very solid success, and again, 
providing that ongoing training for not only incumbent 
employees, but also entry-level. In the past 6 months, we have 
worked with a program through the Center for Workforce Success 
in the National Association of Manufacturers and several 
foundations where we have actually graduated 60 low-income, at-
risk individuals through a training program at a local 
technical college, and more than 40 of those have found work 
and are on career ladders in our industry. So it truly is a 
team effort.
    One last thing I would like to mention, we have had a lot 
of success with experimental learning, with a Junior 
Achievement program. We have a Battlebots program where we 
built, the manufacturing sector has built a competition dome 
for robots that students build. We have had a lot of success 
with EarthWorks, a science program, a hands-on program. the 
Junior Achievement exchange city has been very, very successful 
for us, as well. So we have some good things going on in 
education and industry in cooperation in the State of 
Minnesota. Thank you.
    The Chairman. Thank you.
    Dr. Bzdack.

    STATEMENT OF MICHAEL BZDACK, Ph.D., DIRECTOR, CORPORATE 
  CONTRIBUTIONS, JOHNSON AND JOHNSON, INC., NEW BRUNSWICK, NJ

    Mr. Bzdack. Echoing what Mr. Ajax just said, the hands-on 
experience, we have found in our programs is very valuable. But 
before I talk about that, I wanted to just mention that there 
is an incredible amount of evidence already out there in 
programs that work, and many of us are out looking to create 
new programs when there are measured programs that have already 
proven success. So I think I am going to stress that over and 
over, that there are some great models out there already and 
they just need to be scaled up.
    From our experience, we have found that the magic 
ingredients to these community partnerships that increase 
student achievement are the participation of higher education, 
the participation of the businesses in the community, and the 
employee engagement. I mean, that seems like a simple formula, 
but it boils down to children exposed to the real world and 
real people and those people that do those jobs. This again 
sounds simple, but if it is done over time and a minimum of a 
3-year period, we found that we have evidence that we can 
improve student achievement and college readiness for these 
students.
    We often say when we begin a program in a community that 
college is like going to the moon and the workplace is like 
going to Mars, so our whole goal is to break down those 
barriers and demystify both experiences. Thank you.
    The Chairman. Thank you.
    Ms. Day.

  STATEMENT OF SANDRA DAY, MAGNET SCHOOL ADMINISTRATOR, OMAHA 
                       PUBLIC SCHOOLS, NE

    Ms. Day. Thank you. I wanted to start my comments just by 
clarifying a little bit about what magnet schools are so we are 
all on the same page. Magnet schools are public schools of 
choice that offer a really innovative array of curriculum 
offerings that are not offered at the neighborhood school so 
that parents will opt, choose to send their child to a 
different neighborhood. This becomes a very important and 
effective integrative tool for the Omaha Public Schools.
    We have learned that not only does a curriculum have to 
look different, it has to be delivered in a different way, and 
that is one of the things that the Omaha Public Schools for 25 
years now, working with the Council of Great City Schools and 
Magnet Schools of America, have developed some really terrific 
strategies, and one of them is and has been echoed here already 
and that is engagement of the learner, be that child engaged at 
pre-K or all the way through 12th grade. It is engagement of 
the learner.
    How do you know what they are interested in? Well, we have 
developed something that we call the Approaches to Learning 
Survey. In the fall of every year in grades 2 through 12, which 
are magnet grades, we deliver this survey to students and it 
asks them to self-assess, do I learn best with hands-on 
experiences? Do I learn best from auditory learning? Do I learn 
best from reading?
    And so from that information--it is literally just a 
survey--the teachers are able to come together in a team 
teaching situation. We do a lot of looping, and I am not going 
to take the time to define those, they are in the record that I 
have submitted for today, and some of the teaming at the 
various grade levels from kindergarten all the way through 9th 
grade and 10th grade, the teachers sit down at a common time 
plan and they look at which students are interested in hands-on 
issues that relate to science.
    And so as a teaching staff, you tailor the lesson to the 
students' learning style. You wouldn't see in a magnet school, 
and I do want to stress that these are strategic plans at 
magnet schools. They are not at all 80 of the Omaha Public 
Schools, only the 15 that are magnet schools. The key is to 
know the learner, find out what their interests are, tailor the 
lessons to them, and you will have an engaged student.
    I would like to also say that one of the things that is 
unique about magnet curriculum is it has something that--we 
built in something that we call extra value standards, and 
those are additional sets of standards that lay on top of the 
regular State standards. They are typically community 
involvement-based, and I want to give you an example of that. 
We have instituted in one of our high schools, Omaha North High 
School, that is a math, science, and engineering magnet school, 
a program called Project Lead the Way. It is a pre-engineering 
program. I see lots of heads shaking around the table. The key 
to this particular program is taking an in existence math and 
science curriculum, math and technology, and lay over the top 
of it a very engaging, hands-on, stimulating, very rigorous 
pre-engineering program.
    There are students in North High School that I am talking 
about in grades 9 through 12 who have--this particular program 
has specifically changed the diversity of who comes out the 
other side of this particular pipeline. It is no longer 
typically your extremely bright white male students. The 
statistics on this particular course draw is amazing. We have 
got approximately 30 percent women involved in this and 30 
percent minority students involved in this program.
    And the piece that is the capstone piece, which is the 
community involvement piece, the students design or redesign a 
particular issue in the community that is a problem. For 
example, one of our nonmagnet students, or nonmagnet schools, 
Boyd Elementary--actually, where my own children went to 
school--had a very, very unsafe off-loading and parking area in 
the front of their building. The students in the engineering 
design and development course went to the school several times 
and worked with the community engineers that are part of the 
advisory committee, worked with people at the university, 
worked with architects out in public business to design a safe 
off-loading area for these students.
    That was about 2 years ago. The PTA in that building is 
working very hard to get the funds together. They are working 
with city planning to actually implement that project, and that 
is an example of what an extra value standard project might 
look like. Typically, these projects are a year or so in the 
making at that level. But the key, we feel, truly is engagement 
of the student at every level.
    The Chairman. Thank you.
    Ms. Langston.

STATEMENT OF CARRIE LANGSTON, TEACHER, WYOMING WRITING PROJECT, 
                         CHUGWATER, WY

    Ms. Langston. Keeping my comments to 2 minutes should be 
really easy because that is the attention span of most of my 
classes--[laughter]--so I will try not to talk too fast, but I 
feel so passionately about what I want to share today. I am 
grateful and excited to hear that IBM and business communities 
are becoming involved in the education process and bringing in 
teachers. I am excited to hear that someone still thinks we 
need to teach them to read, even past the 3rd grade. We have 
principals here who are dedicated to making this system work 
better.
    Perhaps the most meaningful thing I have heard so far is 
that there are models that do work, that we have some research, 
we have something to show you that will say, this will help 
engage kids. This will help kids work and learn and stay 
involved in the process.
    I have been very fortunate to be involved with the National 
Writing Project and the Wyoming Writing Project for nearly 20 
years now, more actively in the last 3 to 4 years, and I have 
found by taking this situation where we take kids where they 
are, find what their interests are as the magnet schools are 
talking about, tailor that situation to reading and writing and 
addressing literacy so they can make the connections between 
their math classroom and reading their math textbook and 
applying, using higher-level thinking skills to work across the 
curriculum. We are finding that we are having real success.
    I could tell you about a lot of students. I could tell you 
about a lot of facts. But the bottom line is that we have got 
to find a way, and I would suggest that this model whereby we 
give students an opportunity to explore their thoughts and 
generate ideas, write them down, share them with colleagues in 
a situation much like this, do some revision, do some writing 
until they have something that is excellent and publish that 
just even for the classroom is where the students are learning 
to make the connections and the meaningful connections between 
their writing, their reading, their math, their science, their 
social studies, their special education.
    Some of my best writing and best products are coming from 
special education, and it takes a commitment from the teacher 
and well-trained teachers, but we have to provide the kids 
something that is theirs, something that is truly, truly 
meaningful to them. I am finding that through the model of the 
Writing Project, through teaching other teachers how to use 
this in the classroom, through networking with our universities 
and our business community, that we are finding a way to get 
these students who seem to not care, some of the parents who 
seem to not value education, truly engaged, and I am happy to 
be able to share that with you today.

                 Prepared Statement of Carrie Langston
    I am honored to participate in the roundtable discussion of the 
U.S. Senate Committee on Health, Education, Labor, and Pensions 
entitled ``Competitiveness: Building and Filling the Pipeline.'' The 
issues we are addressing today in the context of our Nation are the 
same issues I address nearly every day in my classroom.
    If our goal is to find strategies to motivate, engage, and enable 
our young people to reach their full potential, and to raise the 
academic bar while recognizing individual gifts and talents, I am 
delighted to share what I have learned in a variety of settings working 
with diverse ages and ability levels.

The National Writing Project as an Effective Strategy to Benefit 
                    Teachers and Students

    I first became involved with our local site of the National Writing 
Project 20 years ago. Participating in the Wyoming Writing Project 
summer institute was a life-changing experience for me. I learned that 
my students would achieve more if they had the opportunity to use a 
process that includes generating ideas, sharing them with others, 
revising, proofreading, and finally, when the writing is of excellent 
quality, publishing. I learned to emphasize the content of the writing 
and the clear presentation of that content. I learned that academic 
success depends on learning to write well, and also on learning to use 
writing as a tool for problem solving and for understanding complex 
information in other subject areas.
    I was able to apply the substance of the institute in my classroom. 
I found without exception that with the processes of writing I could 
reach students of all skill levels, challenge them to become personally 
responsible for their own learning, teach them to strive for 
excellence, and provide them the opportunity and tools to be 
successful.
    The National Writing Project also provides me with a key tool: a 
network of teachers across the country with whom I can collaborate on a 
variety of projects. I am proud to be one of the 100,000 teachers a 
year who are ``in the trenches,'' working daily to bring not only 
literacy, but the application of higher-level thinking skills to 
students and to my colleagues who teach social studies, math, science, 
business, foreign language, and special education.
    In fact, the skill of writing is as critical to a scientist, a 
mathematician, or an engineer as it is to an English teacher. Improving 
writing in all disciplines contributes to solving the pipeline problem, 
ensuring that more high school graduates will have the motivation and 
skills to succeed in the STEM fields. For this reason, the writing 
project workshops we conduct are for all teachers.

Making a Difference Student by Student

    Working in partnership with their universities, writing project 
teacher-leaders are tackling the demands of the 21st century in their 
local areas. I could share with you hundreds of stories about students 
I have worked with in rural schools in Wyoming, young people at a 
residential treatment center for troubled youth, and even adults who 
are seeking to finish their high school studies. But perhaps the story 
of Kelly represents all of them in some way. Kelly was expelled from 
the largest high school in our district because of his drug use, 
defiance, and assorted personal issues. Sporting a number of tattoos 
and piercings, he enrolled at Chugwater High School where I teach 
English. Through the process of writing, sharing with classmates, 
revising, and finally producing publishable pieces, Kelly found that he 
could make his life ``make sense.'' He told me that he was able to 
connect the dots between school and his ``real life'' and to make 
connections between various classes. He also found a way to connect 
with the best parts of himself, because writing helps us to recognize 
and develop our own voice, our own humanity. Kelly will be graduating 
in May with a 3.4 GPA and plans to continue his education at a 
community college.
    Equipping students with ways to invest in their own learning, 
motivating them to continue education after high school, and helping 
them choose a path to excellence is a daunting task. Learning to write 
has provided that path for my students. The writing project has given 
me the knowledge and confidence to teach writing effectively and the 
professional standing to help other teachers do the same.

    The Chairman. Thank you very much.
    Mr. Schwarz.

STATEMENT OF ERIC SCHWARZ, PRESIDENT AND CEO, CITIZEN SCHOOLS, 
                           BOSTON, MA

    Mr. Schwarz. Thank you for the opportunity to share with 
you. I am Eric Schwarz. I lead Citizen Schools, which is a 
network of after-school programs operating with middle school 
kids and kids bridging into high school in Massachusetts, 
California, Texas, New Jersey, and as of next year, North 
Carolina.
    I think you well framed the challenge of the high high 
school dropout rate as well as the challenge of too many young 
people not having the 21st century skills they need in the 
workforce and for college even if they finish high school. I 
think the two solutions I would like to propose are, one, more 
time, and two, more people engaged in young people's lives 
during the critical middle school and sort of early high school 
years.
    We do that at Citizen Schools through an apprentice model 
in the after-school hours where we recruit volunteers who are 
lawyers, business people, architects, chefs, and challenge them 
to spend one afternoon a week with a team of kids making 
amazing things, and the kids get a chance to work with 
engineers from IBM, architects from the finest firms in the 
country, Web designers to build useful products for their 
school and for their community. It is a mentorship program, but 
mentorship with a purpose and a chance for kids to build high-
level skills and get a taste of the joys of work and get a 
taste of the relevance of the things that they are learning in 
school, as well.
    I think it is important to add time to do this, because the 
school day is already so squeezed. What we are seeing in 
schools around the country where we partner is the schools are 
forced more and more to focus on the basics and focus on basic 
math and basic reading, and the extracurriculars and more 
hands-on learning activities that many kids need to thrive and 
others have mentioned are being squeezed out of the school day.
    After school provides a great opportunity to build those 
skills and build 21st century skills. Our model allows them to 
do it both through apprenticeships as well as through academic 
coaching and leadership development led by a young staff of 
educators.
    And then our real focus on how do you get kids when they 
are still in middle school dreaming about college and thinking 
about college and bringing them--we bring our youth leaders to 
10 college campuses in that year and use that as a window into 
the high school choice.
    And the last thing I would emphasize is the importance of 
high school choice in building an educated consumer who is an 
8th grader who realizes the implications of the track they get 
on in high school, the courses they take, and the choices they 
make, and getting those young people when they are 12 or 13 and 
haven't yet mentally dropped out to realize the path to high 
school, to college, and to the workforce is critical.
    We have done a major evaluation--we are in the middle of 
it--led by folks in Washington, Policy Studies Associates. So 
far, what it is showing is really encouraging, that kids in 
Citizen Schools as against a comparison group are out-
performing their peers on six out of seven academic indicators 
back in middle school. They are getting by more than a two-to-
one margin into college-track high schools as against a 
comparison group. Even though they are in more rigorous high 
schools, they are outperforming their peers significantly in 
math and English in their freshman year and they are getting to 
10th grade on time, which is the best early indicator of high 
school completion on time at much higher rates.
    So I think more focus on time and getting extra people, 
citizen teachers, we call them, into education.
    Senator Ensign. [Presiding]. Good.
    Mr. Bailey.

  STATEMENT OF BOB BAILEY, NATIONAL SCIENCE FOUNDATION, GRANT 
PROJECT MANAGER, CENTRAL VIRGINIA COMMUNITY COLLEGE, LYNCHBURG, 
                               VA

    Mr. Bailey. Thank you. We are all very, very fond of the 
pipeline metaphor, so I am going to play with that a little bit 
with my comments. If you have a pipeline and you are losing--if 
you have a leak or if you are losing pressure behind it, the 
first place you go look are at the transition points because 
that is typically where it happens. Even more so, if you build 
a pipeline and leave a six-foot gap, or a six-inch gap, between 
the transition points, the only thing that gets through is the 
material moving very fast and the rest of it falls on the 
floor, and that is what happens in the education system.
    The transition points are critical from grade to grade, 
from elementary school to middle school, middle school to high 
school, high school to college. Each transition can be more 
intimidating to the student and more likely to make them say, 
that is it.
    And so one of the things that we have been involved with, I 
have seen other organizations involved with, is incorporating 
activities from the next level into the previous level so that 
students get a flavor of it. They find out that they can do the 
work, they are more likely to move on.
    The same transition exists from the education to the 
workplace. It seems intimidating and overwhelming, don't think 
you can take it. If you can integrate work-based learning 
activities, internships, youth apprenticeships into the 
educational pipeline, that transition to the workplace becomes 
a lot easier.
    Senator Ensign. Very good.
    Ms. Freeney.

 STATEMENT OF REYGAN FREENEY, A DOCTORAL CANDIDATE, UNIVERSITY 
                     OF IOWA, IOWA CITY, IA

    Ms. Freeney. Good morning. I am glad to be here. I come 
today wearing many hats. I want to talk about being one of the 
students who was a participant in one of these pipeline 
programs. Coming from the environment that I came from--I am 
from Iowa. I grew up in a small town in Iowa, poor area, poor 
schools, and I was able to participate in a program that 
provided me with the necessary tools to be able to make that 
transition, to first of all graduate from high school, then 
make that transition easily into college and to succeed in 
college, not walk through, but excel because of a lot of the 
tools that I learned because of my experience through the 
Upward Bound programs.
    Coming from the 8th grade and a single-parent home where my 
mom worked menial jobs just to try to make things, you know, 
try to make things happen for her kids, she had no idea about 
college. She wanted me to go and I wanted to go, but she had no 
idea what was entailed in that process. And being a participant 
of a program that worked with students who were very similar to 
me, you know, and sitting in class, a lot of times you don't 
know the circumstances of a student. And we talk about engaging 
these students, but a lot of times, students are worried about 
their day-to-day needs.
    And so this program gave me an opportunity to get away from 
my day-to-day needs and to see other students much like myself 
who had interests like I did and want to achieve and succeed. 
And so this program gave me tools on the things that I needed. 
It gave me an opportunity to see other college students, 
students who came from similar situations like myself, and it 
gave me an opportunity to mentor these students and also an 
opportunity to meet college professors. It lowered the barrier 
for me to know what it will take to be a college student, and 
college was not just for students unlike myself.
    And so I made that bridge. I crossed that bridge and I saw 
the valuable impact on mentoring, relationships, and seeing 
that a scientist is just not an old guy with white hair with a 
lab coat.
    [Laughter.]
    It also gave me the opportunity to see that it is not a 
dark or cloudy field, but there are areas, a variety of areas 
that are real world applicable. And so being able to see and 
gain a research experience through the Women in Science and 
Engineering program and the Upward Bound program, it gave me a 
lot of tools that I needed in order to succeed. And so I saw 
the value in how the program impacted my life because not only 
did it give me a way out, it gave me a way in. It gave me a way 
in to influence other students.
    And so I saw the value of the program, and so after I 
obtained my master's degree in chemistry, a little poor girl 
from Waterloo, Iowa, I decided to go and work for the program. 
And so I have worked for a few years and I, too, had a chance 
to change the lives of students and to open the door for 
students who were--some of our students were great students and 
some of our students were mediocre students. I had a student in 
my program who, if you talked to her, she is very intelligent, 
but when it came down to taking exams, she didn't do so well. 
We had her tested and we found out that she had dyslexia. This 
girl will be graduating in a year in nursing.
    So we have the tools. We have programs that currently exist 
that can help students, and this is not just one success story. 
I am not just one success story. There are many stories like 
mine.
    And I want to say also, and I will be brief, but 
understanding the role that it is a pipeline. I think it is 
very important to have the colleges and universities involved 
with the high school and also having business professionals, I 
mean, businesses engaged in colleges and universities. If you 
want to change our workforce and make sure that we have the 
opportunity to fill in these gaps that we see, I think it is 
necessary to look at some of the tools that we currently have 
in place and go from there.
    And I do have information that I will submit for the 
record, so thank you.
    The Chairman. Thank you.
    Dr. Layzell.

    STATEMENT OF TOM LAYZELL, PH.D., PRESIDENT, COUNCIL OF 
             POSTSECONDARY EDUCATION, FRANKFORT, KY

    Mr. Layzell. Thank you. I agree with everything that has 
been said. I just want to add maybe a couple of different 
perspectives from the postsecondary education standpoint.
    I think we have done our students a disservice in this 
country in the past several years by ignoring the fact that the 
world has moved to a place where, I don't care what you want to 
do, as has already been said, you are going to go to work, you 
are going to go in the military, you are going to go to 
postsecondary, you need that rigorous curriculum in high school 
and even grades below that.
    So we are very supportive of this movement toward a single 
rigorous curriculum. I think, as has been said, the students 
will live up to the expectations we have of them.
    A couple other things I think are important for all of us 
is to remember something that was said over 30 years ago by a 
man named Bud Hutchinson, that this really is all one system 
that we are talking about here. We happen to come into it at 
different points along the way, but we have got to make that a 
reality, that colleges and universities and the K-12 system 
understand that we are all linked together. We cannot build a 
strong postsecondary system on the back of a weak K-12 system. 
They cannot succeed if we have a weak postsecondary system. We 
have to have a lot more interchange, interaction, inter-
relationship, collaboration between the two systems.
    A couple other things that I think are important. We have 
mentioned teachers and teacher preparation in passing. That is 
a huge challenge for all of us, to make sure that those of us 
in postsecondary education are preparing the teachers to teach 
in today's classrooms and there is some evidence that we are 
not.
    Educational leadership programs are crucial. You cannot 
have a strong school without strong principals or strong 
superintendents. Again, that largely falls in our bailiwick in 
postsecondary education, to make sure that our educational 
leadership programs are, in fact, attuned to the realities of 
today.
    We have got to have better induction programs for young 
teachers. We lose too many young teachers in the first 2 or 3 
years of their teaching experience, and I am a father of one of 
those young teachers that left the profession very quickly 
because I think we didn't do the kind of training, the 
induction that was necessary for her and for many others like 
her.
    I had the opportunity to attend the National Governors 
Association summit on the high school about a year ago now. 
There were kind of two general themes that came out of that 
conference that were troubling. These came from Governors, for 
the most part. They either said their citizens in their State 
were complacent about the quality of their educational system, 
or, on the other side, they were cynical that anything could be 
done, and those are--the convergence of those two themes is 
pretty ominous for all of us, I think.
    And I think there are too many people yet today, certainly 
we have encountered this in Kentucky in my short period of time 
there, that do not understand some of the statistics that you 
cited, Mr. Chairman, at the beginning about the need for how 
many jobs in today's economy need postsecondary education, the 
importance of training for the workforce essentially the same 
way that you train for postsecondary education. We have got to 
get that message out.
    As has already been said, there is a number of programs, 
initiatives, studies that have been done that I think show us a 
way to go and we just need to pay some attention to the 
evidence in front of our faces. Thank you.
    The Chairman. [Presiding]. Thank you. I want to thank my 
colleagues. They have to run and vote. That is what I just got 
back from doing. Both of them have some outstanding bills that 
deal with competitiveness and getting us from here to there, so 
would you like to say anything before you leave to vote?
    Senator Ensign. Yes, I appreciate it, Mr. Chairman, simply 
because I have to preside in the chair from 11:00 to 12:00, so 
I won't be able to continue to participate. I appreciate you 
holding this hearing and just wanted to raise one point. I 
think all of us recognize the need for more of our kids to be 
motivated to learn math and science. I was over with Margaret 
Spellings this morning having a little coffee with her and we 
discussed how we identified the problems our kids had with 
reading, why our kids weren't learning to read, and the debates 
surrounding whole language and phonics. We recognized the 
problem and we did good studies to fix it.
    But we don't have studies to tell us why our kids aren't 
learning math and sciences. You know, there are some theories 
out there, but the problem hasn't been totally dissected. Are 
students just not motivated like they used to be motivated? Is 
it teaching techniques? Is it parents that aren't helping 
motivate our kids or are not putting enough importance on 
learning math and science? Is it teacher competence? Is it a 
combination of things?
    The bottom line is we have to find the things that seem to 
be working, and find what was causing the problem in the first 
place. As it was mentioned, we have to spend more time teaching 
core subjects. It could be that one of the reasons we have to 
spend more time teaching core subjects to students is because 
teachers maybe aren't teaching the way that we used to teach. 
We used to learn math and science in the same amount of time 
and still have time for P.E. and still have time for other 
important subjects. We have to ask ourselves some fundamental 
questions to effectively solve this problem.
    So the direction you are taking this committee is exactly 
right, holding these types of roundtables, and I appreciate 
your leadership on this and thank you to everyone 
participating.
    The Chairman. Thank you. What a flood of ideas we have 
already had, and I appreciate it.
    Dr. Morningstar.

  STATEMENT OF MARY MORNINGSTAR, PH.D., ASSOCIATE PROFESSOR, 
    UNIVERSITY OF KANSAS, DEPARTMENT OF SPECIAL EDUCATION, 
                          LAWRENCE, KS

    Ms. Morningstar. First, I want to just thank you for 
including me in this discussion. I was thrilled that the focus 
on students with disabilities at the secondary level was 
included. I want to start--so I want to acknowledge the 
inclusion to participate.
    I want to start just by giving you a few statistics, 
briefly. I think the most recent report out of the National 
Council on Educational Statistics is that 64 percent of high 
school students attend some form of a postsecondary setting. 
Their expectation is a lot higher. I think it is around 82 
percent of students expect to attend college.
    For students with disabilities, the most recent research 
coming out of the second wave of a national longitudinal study, 
a 10-year study on high school outcomes for students with 
disabilities is that 32 percent of students identified with a 
disability go on to a postsecondary setting, not quite at the 
same rate. Now, interestingly, it is double what it was 10 
years ago, and so the question you have to ask is what has 
changed?
    Certainly, some might think, well, kids with disabilities 
can't go on to college, but clearly, the research is showing 
that that is not the case. What has changed is that there are 
high expectations that students with disabilities participate 
in rigorous coursework with the accommodations that they need 
and the instructional techniques that meet their learning 
differences.
    I was very pleased to hear Ms. Varner talk about the 
ceilings, the differentiated ceilings, and I bet one of the 
lowest ones at one time was for students who were in the 
resource room classrooms. If we all have the same expectations 
for those students, we know they can be successful.
    I think, Ms. Day, you talked a lot about multiple 
approaches to learning, your survey on how kids learn best. In 
our field, we call that adaptive pedagogy, that we have 
teachers who have expertise in individualized learning, and one 
of the most recent sort of research-based practices that have 
come out of the field of disability is universal design for 
learning. I think many of you may be familiar with a concept of 
the universal design. The curb cuts in front of the Senate are 
a good example. They were designed for access for disability, 
but they are available to all of us. And universal design for 
learning at its core essentially says we have multiple ways to 
represent the text or the content, the knowledge base, multiple 
means of expressing it, and multiple means of engagement. So a 
lot of you have talked about that level of engagement.
    What I still hear, and my focus within higher student 
learning is around teacher preparation, well, we are preparing 
teachers using similar concepts. We are calling them different 
things. And what we haven't done successfully, particularly at 
the secondary level, is work together. So we still have 
separate educational systems that need to start merging so we 
have better partnerships with the general educators who have 
innovative practices and they are using our practices.
    One other practice that I will mention, and I think I will 
save the issue of wearing two hats, both disability as well as 
teacher preparation, I will save my teacher prep for the second 
question about what we need to do next, but one of the probably 
biggest successes that we have seen within the field of 
disability in the last years is assistive technology. It is 
interesting, it hasn't come up yet in discussion around science 
and math because it comes out of the computer industry. So 
assistive technology primarily has been designed for students 
with disabilities.
    I had a conversation with Ms. Willner right before where 
she was talking about what IBM has done in terms of making Web 
sites accessible using a variety of computer software and 
computer hardware available for people who are visually 
impaired. So they can't read the screen. They can hear it 
instead. The computer reads the screen for them.
    Well, I immediately started talking with her about the 
advantages of that for a variety of individuals, not just 
people who are blind, so kids with learning disabilities, when 
they have access to that technology, they, too, read better. 
Their reading scores, the research on the reading programs that 
use universal design and assistive technology have shown large 
increases in reading skills for all kids, not just students 
with disabilities, but any low reader can show improvement with 
the assistive technology that is designed.
    The other thing that I just might mention in the 
discussion--well, actually, I will touch on what you have 
talked about in terms of your mentoring program with Upward 
Bound. Again, what we are seeing within the field of 
disability, that where we have mentoring programs, National 
Science Foundation funds regional centers called Access for 
STEM, so it is to provide additional support, probably very 
similar to Upward Bound and the TRIO programs, additional 
support, college fairs, ongoing support from high school 
through college specifically designed for students with 
disabilities so that we are promoting their involvement in the 
STEM career paths.
    Again, from my perspective, I think we should be jointly 
proceeding so that we are not doing our thing over here while 
IBM is doing their thing over here, but we need to start 
building those bridges and collaborating between the knowledge 
base that we all can bring to the table. Thank you.
    The Chairman. Mr. Shelton.

    STATEMENT OF JIM SHELTON, EXECUTIVE DIRECTOR, EDUCATION 
  DIVISION, BILL AND MELINDA GATES FOUNDATION, WASHINGTON, DC

    Mr. Shelton. Good morning, Mr. Chairman. I agree with so 
much of what has been said today that I just want to offer a 
few framing comments.
    The first is that I think it is important for us to keep in 
mind that when we talk about the competitiveness of our 
country, we actually have two goals at the high school level we 
have to achieve. One is the obvious one of actually getting 
more kids college ready so they can enter the workforce, the 
knowledge economy as we normally describe it. But I would 
submit that increasing our graduation rates nationally and 
reducing our drop-out rates is also a very important part of 
our ability as a country and, therefore, our competitiveness. I 
think it is very important for us to make sure that when you 
use definitions of what works, that we are very focused on 
recognizing that those two goals need to be tied together and 
that there is an inherent tension.
    The second thing is that, as you have heard, there are 
many, many very important parts to strategies for making school 
successful and for making systems of school successful at 
graduating their students college ready, and the one thing I 
want to point out is that it is not either/or. It is and/both.
    The places where I see success in my work with the Gates 
Foundation are the places that keep in mind that it is about 
expectations, that it is about preparation, that it is about 
awareness and information, that it is about understandings for 
students of affordability, because if they don't know that they 
can afford to go, then why bother? And networks and support and 
how they get the time and resources they need to be successful 
with these new demands that we are placing on them.
    One of the things that we have to keep in mind is, in fact, 
we are actually trying to do what is unprecedented. The idea 
that the systems and resources that we used before, something 
is now different about the students because they are not being 
successful, is actually not so accurate. What is accurate is 
that we are trying to get many more students than have ever had 
access to the kinds of curriculum, to the kinds of 
opportunities that we need them to have access to, that we need 
new strategies, that we need much more holistic environments 
that are going to address the needs of all the students.
    So I am going to come back to something that Ms. Varner 
said, because she laid out four goals and I have tended to find 
them all the same in all the schools that I see that are really 
successful. Common, high expectations identified in the 
standards with accountability for that performance 
specifically, actually especially in reading, writing, and 
mathematics. The others are very important, we need those 
problem solving skills in all of the areas, but the 
accountability for performance regardless of what pathway the 
student goes through in reading, writing, and math is very 
important.
    The second thing is the creation of school environments, 
whatever they look like--I am used to very structured school 
environments with traditional academic tracks. Since doing this 
work, I have found schools that are highly rigorous that have 
no classes. They do all of their work through projects in 
school and life internships out in the field.
    They have great relationships with their students. All 
great schools know how to create great relationships between 
the adults and the students in the building, the students with 
each other in the building, and most importantly, actually, the 
adults in the building so they can work together to problem 
solve around the needs of the students.
    And then finally, the relevance, so kids know why this 
matters. As all the teachers in the room and all the principals 
in the room know, the worst thing you want to hear when you 
walk into a classroom is, what am I ever going to use this for? 
We have to make those connections for students so that they 
understand how what they are learning in the classrooms is 
going to be connected to the real world, and then the best 
cases we can show them how that is going to happen.
    The challenges of integrating these things, making them all 
happen at one time with the systems and capacity and the policy 
challenges that we have today is a complicated set of 
solutions. So it is going to take time and it is going to take 
joint effort, and so I am really happy to hear Dr. 
Morningstar's commentary about us working together. There is 
lots of individual effort going on. We need to figure out how 
to pull it together in a cohesive period of change. Thank you.
    The Chairman. Thank you. And for our last speaker on 
question number one, Ms. Brooks-Crocker.

     STATEMENT OF WANDA BROOKS-CROCKER, NDE CERTIFICATION 
   ADMINISTRATOR, FRAMATOME ANP, INC., AN AREVA AND SIEMENS 
                     COMPANY, LYNCHBURG, VA

    Ms. Brooks-Crocker. First of all, thank you for having us 
here today. I work in a very specialized field. It is 
nondestructive testing. I don't know how many of you may have 
heard something about nondestructive testing in your life, but 
I know when I got into it, I came into it completely by 
accident. I worked for a company called Babcock and Wilcox and 
a group moved into the building that did this type of testing, 
and guess what, it is the thing that keeps our infrastructures 
safe. It is transportation, railroads, airplanes, nuclear power 
plants, and that is the field that I work in, is nuclear power.
    Since this is such a specialized field, it is not talked 
about a lot in the curriculums that exist right now. There have 
been a few initiatives locally. The company that I work for, 
AREVA, Framatome ANP, has put into place some summer academies 
where middle school students come in and they get some exposure 
to nuclear power and nondestructive testing, robotics, and then 
at the internship level, we have some students that come in, 
high school-age, and they work about 6 weeks with us. The 
summer academy is a week-long thing. Recently, the local 
community college, since we are a big employer in that area, 
they contacted us about putting in a program. We have a work-
study program that is now about 3 years in existence and been 
very successful.
    We are faced with other challenges in our industry, of 
course, because the workload tends to happen in very concise 
periods of time in the spring and fall, so that leaves some 
other challenges probably for another type of discussion.
    And most recently, the local high school, after the 
community college had this work-study program, the local high 
school came to us and said, can you do something for us, so 
they are now starting their second year of nondestructive 
testing. We have realized through this evolution that at the 
high school level, they need more than just high school 
graduation to go into this type of a work environment, so the 
local community college and the high school are working very 
closely together to develop a high school introductory level to 
four different areas in nuclear technologies, and then from 
there they can decide which one they want to focus on and go to 
the local community college and get further education.
    So it is definitely an area, I have heard many of you talk 
about the business and business leaders and educators need to 
work together. The educators need to know what the needs of the 
world are, you know, what do our students need to learn, 
especially in these specialized areas?
    So I thank you for holding this roundtable discussion today 
and look forward to more things happening here, so thank you.
    The Chairman. Thank you. I am going to move on to the 
second question. I will have everybody put their name tags 
down. I apologize for you not having a chance to respond again, 
and some of you were fairly early in the discussion, so there 
are other things brought up that you need to respond to and I 
hope that you will jot those down and share them with us in 
writing, because some of the best ideas are actually the ones 
that come after somebody else said something, and we need 
those.
    That question was kind of on strategies we can use, and I 
am always impressed with the volume of information that we get 
from these, the ideas that just ripple through there. And, of 
course, one of the reasons is because we invite outstanding 
people to these roundtables to provide that information.
    The second question deals with partnerships, and what I 
noticed was that it is pretty hard to separate strategies from 
partnerships.
    [Laughter.]
    And I am sure that will be the case on the second question, 
as well, but I think it is working well. We want to talk now 
about strong partnerships among high schools, postsecondary 
institutions, businesses, and government which are essential to 
making the high school experience beneficial for all students. 
Any information you have on the respective roles of each 
partner and what can be done to start these partnerships and 
then to facilitate communication and coordination so that the 
partnerships work out, any experiences you have had with that 
that you think might have some universal application.
    Part of what we have found is that there are a lot of great 
ideas around this country, but most of the people don't know 
about them and it is pretty hard to implement them if you don't 
know about them. So part of our role is to help communicate 
those, and again, you are invited here because we knew that you 
had real information on this sort of thing.
    We will begin the discussion on the second question. Before 
you put up your name tags--[laughter]--I want to remind you 
about the 2 minutes. I did notice that as the further we went 
into it, the longer the 2 minutes got--[laughter]--because 
there were so many more things to react on. But what this is is 
kind of a contest on ideas rather than an explanation of the 
ideas, because we will be getting back to you to get more of 
the detail on the ideas. So if you can kind of hold it to 2 
minutes, I would appreciate it. Dr. Layzell.
    Mr. Layzell. Thank you, Mr. Chairman. I would like to just 
briefly outline the approach that has been taken in Kentucky, 
because I think it does have applicability for other States.
    The policy challenge, as you and others have noted, is how 
do you attack these problems in a way that is not dependent 
upon the individual personalities of a particular school 
district or a particular university? Is there a way you can do 
this, and I think there is.
    In its reform legislation, which is now 8-plus years old in 
Kentucky, they turned the usual approach on its head and they 
said, look, we want to focus on the needs of Kentucky, not on 
the needs of the educational providers. We want the educational 
providers to help us meet those needs. And they created a 
concept called the Public Agenda. Later, they added adult 
education to postsecondary education's portfolio and instructed 
us in statute that we were responsible to work with the K-12 
schools because of a recognition of things that already have 
been said here about the importance of the two systems to each 
other.
    From that overall policy framework, we created a State-
level P-16 council, which involves K-12, higher education, 
business, labor, adult education, all the partners that you 
would want involved in a collaborative discussion of how do you 
attack the educational problems that are facing you, and in our 
face, it was very low levels of educational attainment in 
Kentucky. We have since created local P-16 councils throughout 
the State. There are about 21 of them now.
    I think this structure, which provides the opportunity for 
conversations among the various actors involved and has led to 
some really innovative approaches in a number of areas is a 
structure that could well be emulated around the country. There 
is nothing unique about it and it is not unique to Kentucky. 
They just happened to do it first. I would certainly think--I 
would certainly commend this to other people's attention 
because it is a way to force the various parties to deal 
collectively with these problems. Thank you very much.
    The Chairman. Thank you.
    Ms. Varner.
    Ms. Varner. Oh, I was second. I won!
    [Laughter.]
    The Chairman. Good work.
    Ms. Varner. Thank you. I want to talk a little about the 
partnerships that have really made a difference in Chattanooga. 
When I talked about the high ceiling and the single diploma, 
that actually came out of collaboration with our business 
partners who were saying what we should have already known, and 
I guess we knew, that it is not just the students who are 
graduating and going to college that need high-level thinking 
skills. The students that are going straight to the workforce. 
So while, as I said, that would have been a difficult feat, we 
had the business community with us.
    For our students who go to college, we had what is 
happening, I am sure, around the country, they will get to 
college and then they drop out the first year. They are either 
in remedial courses or, as you said, never get through and they 
just don't make it. We have sat down with our local 
universities and looked at the students who are succeeding and 
trying to look back to see, what is their history? What 
happened that may have contributed to their success and then 
what is not happening?
    In our district now, all seniors, regardless of how clever 
they are in getting all of their course requirements in, they 
have to take math because we were really struggling there. And 
so during your senior year, because what we learned is that 
kids who take a year off from math don't do as well when they 
get to college, so you are taking math in your senior year and 
folks understand that.
    In both our magnets and our academies, we have really 
strong partnerships with our magnet schools. We have, for 
example, the museum magnet, and you were talking about some of 
the things that kids have to give up when they are struggling 
with their poor subjects. What we have found is providing that 
context for kids to do what adults do, and that is pursue their 
passions and interest.
    So one of our magnet schools, for example, is the museum 
magnet. Kids have the same high requirements. They have to pass 
the same end-of-course tests. They have the same set of 
standards. But they learn through that context. Our academies, 
the curriculum is developed in collaboration with our business 
partners.
    One of our schools has a medical academy. The CEO said, I 
am no dummy. I am investing my time, my financial resources 
because we need doctors and nurses in Chattanooga. And so the 
curriculum is being developed jointly.
    Our construction academy at one of our schools, East Ridge 
High School, is one of the most successful, and kids who are 
taken in the construction academy are outscoring their peers in 
traditional math on traditional tests. But it is providing that 
context and it is because we are developing, not just doing the 
business day and the business people in the schools for a day, 
but developing strong relationships with them, with our Chamber 
of Commerce, with local attractions, with communication, and 
that is one of the things that is really making the difference.
    That is what is allowing us, I think, those contacts and 
those partnerships, to have a single diploma and have our 
graduations go up, our graduation rate go up, our dropout rate 
go down.
    The Chairman. Thank you.
    Mr. Ajax.
    Mr. Ajax. Thank you. I would like to share a similar 
successful partnership that we have been able to develop in 
Minneapolis, and that is we, 17 years ago realized that 70 
percent of the students coming out of high school were not 
obtaining a high school degree, and we also know that in the 
manufacturing sector, that for every college degree and every 
engineer, we need between seven and ten technicians, and these 
are high-skill, high-wage, high-demand occupations. These are 
men and women that can be tool and die makers and electricians 
and earning between $40,000 and $70,000 a year.
    So we have worked with several of the Minneapolis public 
schools, the at-risk schools in particular, and over the last 
17 years, we have put 800 students through a mentoring program 
and an internship program and one-on-one attention, and we work 
with the students and their parents and explain that you can 
have a free ride. Your entire education is paid for. You will 
have a 2-year technical degree. You will have the opportunity 
to go on to a 4-year degree if you choose. All of your 
education is paid for. You will enter a 4-year apprenticeship 
training program with 8,000 hours of on-the-job training, 144 
hours worth of additional professional development every year 
after that, and you will graduate from your apprenticeship 
program while you are being paid and you will be making between 
$40,000 and $60,000 a year without any student debt or any 
student loans.
    I am happy to say that of the 800 students through the YCAP 
program, more than 92 percent of these at-risk youth have 
graduated from high school. Most of them did go on to 
postsecondary education. Some of them went on to a 4-year 
degree. But what I would like to recognize is we need to think 
about and focus on the 70 percent of the students that will not 
have a 4-year degree, and there is almost a social prejudice 
that exists with educators and students and parents, where we 
look down our nose at someone that does not have a 4-year 
degree. My son has to have a 4-year degree, absolutely. There 
is no other choice.
    Well, we think there are some other choices and we need to 
work harder as business and industry and promote some of the 
opportunities that are available other than a 4-year degree. 
Thank you.
    The Chairman. Thank you.
    Dr. Morningstar.
    Ms. Morningstar. Thank you. There are several things I 
could talk about. I think what I will focus my 2 minutes on 
this time is the role that I see within higher education and 
teacher training, and I know that teacher education and schools 
of education don't always get the best rap and I think that 
some of that is because there may not be a good understanding 
of what we are doing and how we are changing our practices in 
training teachers.
    I know now I have an advantage because I am faculty in the 
number one department of special education among public 
universities in the country, so we take very seriously our role 
in teacher education for special educators, and we take very 
seriously the importance of the current legislation around 
high-quality teachers.
    What we are starting to see is that, well, number one, we 
understand that schools are different and we have our students 
out in those schools on a regular basis, so it is not like we 
are not aware of the current context within which high schools 
operate, and in fact, my program at the secondary special 
education and the transition to adulthood, which is my area of 
expertise in training teachers, they learn about secondary 
school context first and then the role of specialized 
instruction, their role within that as a special education 
teacher with some individualized, specialized skills.
    And what we are seeing from current legislation, I think is 
a good thing. It is hard for us, you know, the shift from the 
way we used to teach, pull-out model, resource room teachers 
teaching science and math for a variety of kids, that model has 
got to end and we are helping those teachers move into a push-
in model of services, where they are eco-teaching in science 
classes and the kids with disabilities are in those science 
classes.
    My perspective is for students who do need specialized 
attention and perhaps not within a regular science class, 
science teachers still need to be providing that instruction 
with the support of the intensive work that special educators 
can do in those alternative settings. I would hold to the focus 
that we feel very strongly about our role in preparing the best 
teachers for tomorrow, getting that word out.
    The Chairman. Thank you.
    Ms. Freeney.
    Ms. Freeney. I will be brief. I will keep it under 2 
minutes. And what I do need to say is that I think it is very 
necessary to offer supplemental programs. I don't think we 
are--it is not an isolated case. It is not just high school, it 
is not just college, and it is not just the business community. 
I think it is necessary to provide supplemental programs both 
for teachers and for students. I think allowing teachers to 
work jointly with colleges and universities and also industry 
provides them an opportunity to obtain additional training and 
receive materials and also provide some--for them to obtain 
some additional instructional support in which they can 
transfer into their classroom.
    I also believe that it is necessary for the students to 
have access to this opportunity which allows the students to 
receive, one, a real-world experience, hands-on training, and 
also to see that the loop between what they are learning inside 
the classroom has application outside of the doors. And I think 
that there are several programs in place that will provide a 
great role model for this, and I just really want to stress the 
point that we are not in this alone. And so an 
interdisciplinary approach to both student learning and teacher 
learning and teaching will provide assistance.
    The Chairman. Thank you. Mr. Schwarz.
    Mr. Schwarz. Thank you. I am seeing some wonderful themes 
emerging around high expectations, the importance of 
transitions, customized learning in school and out of school, 
the importance of mentors.
    I wanted to mention three additional partners that aren't 
explicitly mentioned in the lists you went through but I think 
are maybe implicit, but call them out. One is parents, and we 
are thinking through how community groups can engage parents 
very powerfully as a full partner in their kids' learning. We 
think it is critical, and we think that after-school programs, 
citizen schools and others have the unique opportunity to play 
a bridging role, connecting to the school teachers during the 
day and the parents in the later afternoon and evening and 
bringing them together.
    I was in Redwood City, California, last week and heard from 
a single parent of three middle school girls in our program and 
she talked about the transition and just what it meant like to 
be a parent and to have the support of an after-school program 
that was reinforcing things and values that she believed in 
during the school day and how it had kind of lifted a weight 
off of her shoulders. And then she contrasted when she was a 
kid and had been to a fire station and briefly wanted to become 
a firefighter, was told, you can't do that, you are a girl, 
contrasted that with the positive reinforcement that her three 
girls were getting in our program.
    Second is kids. I don't think we are going to get out of 
the gap that we have and the challenges we have if we don't 
challenge kids to be really producers and take responsibility 
for their own education. The apprenticeship model, at its best, 
really challenges young people to produce for their community. 
So rather than just being a passive recipient of education, 
they are out there producing, and we have young people working 
with Fidelity Financial Advisors, as one example, coaching 
their older brothers and sisters on college access and college 
savings and learning how to share those skills in a way that 
really brings meaning and brings useful information to their 
broader community.
    Third, I think, is philanthropy. I think there is a big 
role that private philanthropy can play as a partner with K-12 
education and with government in scaling what works. I flew 
down this morning from a conference in upstate New York with a 
number of philanthropists and social entrepreneurs, and many 
people in that community are very interested in partnering in 
new ways with government to take stuff that is proven to work 
and bring it to new communities and additional children. Thank 
you.
    The Chairman. Thank you.
    Ms. Willner.
    Ms. Willner. Thank you. I am going to quickly touch on two 
things that were said earlier to underscore them and then talk 
a little bit specifically about partnerships.
    First of all, thanks to Jim Shelton for mentioning that we 
don't want to go back to some supposed golden age. We all had a 
great time in school when we were young, but it wasn't the 
golden age. Those schools were good for the time. They achieved 
the goals that were set before them. They will not meet the 
needs we have today. We have much higher expectations.
    Just the breadth of human learning and understanding is so 
much larger than it was before, our expectations for students, 
and as well as the fact that, as Jim mentioned, we now expect 
every student to get through high school. It is not okay to 
skip high school. It is not okay to drop out. As was said 
earlier, it is not even okay anymore not to go to postsecondary 
school. We need schools for tomorrow that will train our 
children to live in the innovation economy.
    If we only focus on--the second issue I want to raise, and 
it was my colleague from J&J mentioned this, the need for 
hands-on skills, the need for problem-based kinds of activities 
in the schools, very, very important. Rote learning is not 
enough. We will, if we just focus again on the pocket cover 
skills and we teach all of our children to use slide rules, 
they are not going to innovate for the future. They are going 
to get left behind. We need them to focus on problems, and it 
is a two-fer.
    Problem-based learning is a great thing because it is a 
great bargain. It is a two-fer. It engages children in real-
life problems and experiences that are relevant to their lives, 
that excite them, and it teaches them the skills that they will 
need in the workplace to work collaboratively, to address 
problems, to uncover patterns, and to communicate those 
solutions to others. So we need problem-based skills.
    I want to talk a little bit about partnership, and I don't 
think I have time for my top 10 list of things that partners 
should try to do, but I will give you my top four or five. No. 
1--maybe number one, two, and three, actually--is listen. If 
you want to have a good partnership, everybody has to listen. 
Everybody is shaking their heads. That is a good sign. We have 
to listen to each other. We have to really agree not to just be 
in the same room, not to have side-by-side players. We have 
seen the little children that really don't listen and engage 
with each other.
    The second very important piece of advice I would give to 
partners is have some humility. As folks from the private 
sector, we can't walk into schools and say we are more 
efficient. We are the private sector, we know how to make this 
happen. Frankly, my colleagues from the school side, you can't 
just tell us, we are the education professionals. Just give us 
the money. Let us all have some humility and work together.
    Third, we need to get rid of jargon. You all know what I 
mean. There is a certain language that is used in the education 
spheres and the private sector certainly has it, as well. I 
have worked on both sides of the aisle and everybody is great 
at creating new jargon. There is even a little jargon on 
Capitol Hill sometimes, so you know what I mean.
    [Laughter.]
    And finally, innovation. We come together to find new ways 
to do things. Let us not just try to find ways to do more of 
the same. Let us not do the same thing faster, more often. You 
know what, if it doesn't work and we do it faster and more 
often, we will just fail sooner. So let us try to work together 
to innovate.
    And the last thing I want to mention just in terms of 
ventures, and we can provide you with some more of the 
partnerships that we have, but I am thrilled to hear about the 
citizen skills. IBM has about 8,000 folks who are online 
mentors. I actually live in New York and I mentor a young 4th 
grader in Las Vegas, and last year, I mentored a student in 
North Carolina.
    And also, we have beginning on Sunday, for those of you who 
may not know, it is National Engineers Week, so last year, just 
from IBM, we worked directly over the course of National 
Engineers Week with 200,000 high school and middle school 
students, and we are just one company out of the dozens and 
dozens that participate in National Engineers Week. We are all 
geared up for this coming week. We are going to have activities 
in virtually every city in America at our plant site. We have 
to make that the start of partnerships that go forward, not 
just 1 day, but it is a great example of something we can build 
on.
    The Chairman. Thank you.
    Dr. Riddile.
    Mr. Riddile. Thank you. In your opening statement, you made 
a profound statement, that is, schools are always open, 
learning never stops. And underlying that is the idea that, 
given time, all students can learn. Now, in the old school, we 
said all students can learn, but today we understand that we 
want all students to encounter complex subject matter. They may 
take more time to do that.
    I am constantly battling elitists who contend that if 
students take one more day to learn a subject, somehow, they 
are a failure. If we continue to hold time as a constant, we 
are going to continue to have what we had in the past. That is 
the bell curve of performance, and the bell curve in the 
knowledge age is not acceptable to anyone.
    So recognizing that some students may take more time and 
that time now is a variable and not a constant brings up my 
point of our most important partnerships. Now, our school has 
partnerships with 4-year colleges, community colleges, Rotary 
Clubs, service organizations, businesses, and we have had 
award-winning partnerships. But our most important partnership 
is with our own feeder schools, middle and elementary schools, 
that ensure that the time students spend in school, during that 
time, no student falls behind and that there is a safety net 
for all students.
    So instead of focusing outside, the solution is really 
inside, and the answer has always been right in front of us. If 
we really believe that given time, all students can learn, and 
we develop a continuum of professionals who continually provide 
services that every students need. Now, we may need to compress 
more learning time for some students, after-school programs, 
summer programs. Our school, for example, we get a creative 
calendar, college-like calendar. We are able to get 5\1/2\ 
years of schooling in 4 calendar years for some students. All 
students don't need more time. But unless we look at time now 
as a variable, we will continue to get what we have gotten.
    The Chairman. Thank you.
    Ms. Day.
    Ms. Day. Thank you. This definitely, and Sandy Day excluded 
on this one, but this definitely just falls--the whole morning 
falls under the category of, wow, great minds think alike, 
because it is interesting listening to Dr. Morningstar's 
adaptive pedagogy as our approaches to learning and Mr. 
Bailey's pipeline is our pathway, and getting back to magnet 
schools, magnet schools are aligned in those transitional 
pathways and that is exactly what you are also talking about, 
looking inside what we are doing to see how we can adjust, 
refine, and fine-tune what it is that we are pushing through 
our pathway.
    I want to tell you that one of the things that is critical 
to pathway organization, so, for example, if I am talking about 
one of our schools that has the theme of economics, we have an 
elementary magnet school called Conestoga. Students receive the 
economic extra value curriculum in grades 2 through 6. Then 
they move on to R.M. Magnet [ph.] and receive extra value 
curriculum in economics there, and then on to high school and 
then on to the community.
    And what we do with that, of course, is we pull those 
teachers together over the summer so the teachers get year-
round school, not the students in Omaha Magnet Schools, because 
they have to take a look at what they are delivering. And if we 
are not sending to the middle school students who truly 
understand what is expected, let us say, out of that economics 
curriculum, then we are failing them and we are building it 
into our system.
    So I just want you to know that magnet schools have it easy 
when it comes to building these advisory boards that assist 
them with transitions through because they have a theme, but 
actually, any school could develop a theme. It really is 
incumbent upon the principal to come up with, let us say, a 
vision quest and determine what this regular neighborhood 
elementary is finding important in terms of how to encompass 
the life-long learning that are trying to envelop for their 
students, have professional development through the summer and 
make sure that part of that professional development involves 
partnering with the universities.
    Omaha is lucky enough to have Metro Community College as 
well as the University of Nebraska at Omaha, and Dr. Layzell 
talked a lot about our chancellor, who is--that is where that K 
through 16 component came from. One of our magnet themes in one 
of our schools is a university partnership. We have planned a 
pathway that is K through 16.
    And one set theme is developing partnerships with whatever 
higher level of institutional learning you have in your 
community. That is when you start building the business 
partnerships, and I agree 100 percent with what Ms. Willner is 
saying about the top five or six and she has got ten. One thing 
I would add that is working very well in our construction 
academy is invest those advisory board members. Make them be 
invested, and one of the best ways is to make sure they put up 
an internship, paid or unpaid, between the junior or senior 
year to really get those kids out into, and what I am 
particularly thinking of is our construction academy, and I am 
so glad that you mentioned it, Ms. Varner.
    She is our model in Omaha Public Schools. We developed a 
construction academy that takes up the junior level and there 
is regular junior English class, math class, a technology 
class, and a construction laboratory, and the way they are able 
to make those achievement gains. We have students with 11 
percent achievement gains from last year to this year in 
mathematics and the way they are doing it is through learning 
algebra. It goes right back to what is relevant to them. They 
are not just learning an algebraic equation, they are actually 
having to figure out the size of the drywall that is supposed 
to go on the wall that they are building in their construction 
class.
    That is what keeps them engaged. That is what keeps them 
attuned to their learning, and then if you promise them that 
paid or--in our case, paid, thank goodness, thank you very much 
Peter Hewitt Construction--paid internship over the summer 
between the junior and senior year, they actually put some of 
those skills to work.
    I echo exactly Mr. Schwarz. You need to have parents, 
teachers, students involved in that advisory board, because if 
we are not listening to what they have to say, then, again, we 
are doing them a disservice. But I will tell you what, great 
minds do think alike. It is amazing to listen to what is 
happening across the country and seeing that Omaha, Nebraska, 
is not far behind.
    [Laughter.]
    The Chairman. Thank you.
    Mr. Shelton.
    Mr. Shelton. Thank you. Four specific kinds of partnership 
really quickly. Partnerships around alignment, so universities 
working with the local school system to make sure that they 
actually align the exit standards from high school to the 
entrance standards for college. In particular, some places have 
actually gone so far as to make available the placement exams 
for especially the English language, arts, and mathematics in 
the high schools so the kids can put together individualized 
plans for how they are going to make sure they are ready by the 
time they graduate if they were not already.
    The same thing, actually, on the industry side, so industry 
partners working with the school systems to make sure that the 
career and technology programs that they offer actually lead to 
an industry certification, tying it to things like internships 
and apprenticeship programs so those very specific things that 
we actually make sure that we are connecting kids to pathways 
that are going to be meaningful for them when they graduate.
    Third is actually partnerships around data, and there are a 
bunch of different kinds that matter. One is actually making 
sure that the data allows for information sharing about 
students from school to school and from school system to school 
system in close proximity, so that when a kid makes a 
transition from elementary into middle school or changes middle 
schools in the middle of the year or changes high schools in 
the middle of the year, the information about what they have 
accomplished and what they need makes it to them almost 
immediately.
    Just as importantly, though, information sharing between 
agencies, so when a kid comes back from the criminal justice 
system, what happens in terms of their records as they come 
back into the school system and how do we know that that kid 
needs services? When a student is in the foster care system, 
how do we make sure that the school system is aware of the 
challenges that students faces and that the services we are 
providing for those students in those different agencies 
actually meet up to actually serve the students well. I can't 
tell you how many different places I go where four different 
agencies are touching the student and a family and none of them 
know.
    The last thing I will talk about is a very special kind of 
partnership called an early college high school. It is a 
partnership, a very specific partnership between a high school 
and a college where, in fact, you blend the institutions, the 
objective being that you are actually going to graduate kids 
from school with about 60 credit hours or an associate's 
degree. And this is not an elitist program, this is a program 
that takes kids who oftentimes are not thinking that they are 
college bound and making college accessible to them in two 
ways.
    One is, as soon as they are ready, it introduces them to 
college-level work and lets them know that they can actually do 
that. The second thing is if you actually accumulate enough 
credit hours, it reduces the cost of college, and so therefore 
you are making college accessible both in terms of the 
expectations, but also addressing the affordability issues. I 
am done.
    The Chairman. Thank you. I have got to say, on almost all 
of these, I have got a lot of questions I would like to ask to 
follow up to get more information, but there is not a lot of 
time at this particular time, but we will get that other 
information.
    Ms. Langston.
    Ms. Langston. I would like to address specifically two 
kinds of partnership, one related to, when you said there are a 
lot of great ideas out there, but it is kind of hard to get on 
board when we don't know what they are. So I think in the 
educational community, we really need to address a lot of 
communication and partnership within that institution, so 
within school districts, within States, and now at the national 
level, to find ways to partner one with the other, and this has 
got to cross curriculum lines.
    It is not math or science or English or reading. It is we 
need to read and write so we can go on and explore math and 
science. You need to read so you can get the input of the 
information, and you need to write well so that you can express 
yourself and take that on out to the business community. And so 
insofar as partnering, we need to do that on a professional 
level, one with each other.
    And then the second thing is that we really truly need to 
partner with our parents, and there are a variety of ways to do 
that, especially in Wyoming because there are great distances 
and very small communities and not a lot of population. It is 
easy to feel isolated, and a lot of our parents feel very, very 
isolated.
    Once again, one way that I have been able to address that 
issue through the Writing Project is to invite parents in to 
participate in writing journals back and forth with their kids 
so they can see what their kids are doing, back and forth among 
parents in the community, and with the students and the 
teachers, just to set up a dialogue. No one has to be right or 
wrong, it is just a sharing of information. And as we develop 
that trust, then there is a way to proceed with that to develop 
true partnership.
    If I have 15 seconds left, we don't have a lot of 
opportunity to partner with business since we have one 
convenience store and one rest stop. However--
    [Laughter.]
    The Chairman. Don't forget your brother, though.
    [Laughter.]
    Ms. Langston. Oh, that is right. Truly, that is in a 
trailer, I want you to know.
    [Laughter.]
    I am glad to know IBM in New York will partner with a 
student in Wyoming, where business people across the Nation and 
the technology now to make that a reality for these people. So 
I am just very, very encouraged and very grateful to have been 
able to have heard what you have had to share. Thank you so 
much.
    The Chairman. Thank you.
    Mr. Bailey.
    Mr. Bailey. I will be very brief. Productive partnerships 
occur first and foremost when the partners sit down and agree 
upon--explicitly agree upon a common set of outcomes. Quite 
often, that doesn't happen. When it doesn't happen, the best 
case scenario is you get lucky. The worst case scenario is you 
waste a lot of time and a lot of money and you end up with a 
lot of very frustrated people.
    So if you are talking about entering partnerships, I would 
have to say you have to be encouraged to listen, but beyond 
listening, actually discuss, come to an agreement on a common 
set of dialogue, not dictate your outcomes on the other 
parties. Thank you.
    The Chairman. Thank you.
    Dr. Bzdack.
    Mr. Bzdack. Yes. Picking up where my colleague Robin 
Willner left off, there are five attributes of partnerships, 
but first of all, as a company, as a corporation, as a small 
business, as a large business, you have two choices and they 
are parallel. You can do your own initiative or you can join a 
coalition, and I think that there are a lot of strong models 
for stakeholders. It is business coalitions that work, and we 
have stolen many ideas from North Carolina, Texas, and 
Kentucky.
    So those need to be looked at closely, and the five 
attributes of the successful partnerships is that they have the 
power to convene all stakeholders; they listen; they act as 
true collaborators; they put their own agendas aside; they 
focus on evidence, as I said earlier. And the other power, the 
hidden power that we have as corporations is that we can 
leverage the power of our own employees, and that is at the 
very top level and at the very bottom level. And who are our 
employees? They are parents, they are school board members, 
they are voters, they are taxpayers, and many of our employees 
serve on the boards of colleges and universities and nonprofits 
in our communities, so there is tremendous power.
    And my final comment is that there is incredible potential 
among the corporations in this country to collaborate in the 
communities where they have a presence. We have talked about 
it, but we haven't done it.
    The Chairman. Thank you. And again, we conclude with Ms. 
Brooks-Crocker.
    Ms. Brooks-Crocker. Yes. The best for last, right?
    [Laughter.]
    Again, my comments are coming from a specialized background 
and that sort of thing. One of the questions is what are the 
roles of the partners, and as the business partner, I would 
like to say these things, I think, are important. Visibility, 
of utmost importance. We have noticed a big difference when we 
send people out to that school to actually work with the kids 
on learning this nondestructive testing. It is a very hands-on 
thing. They tend to like it quite a bit in the high school and 
community college levels. And what Ms. Willner said about being 
engaged, I mean, you have to be engaged with those students.
    The next thing is assisting with curriculum development. 
Since it is a specialized area, it is essential to making the 
program concrete.
    And also, teacher education. One thing that we have talked 
about for this year is having some workshops in the summer 
where all the teachers, not just those teaching nondestructive 
testing, but all the teachers can learn something about it and 
incorporate it into their classes--little small bits and 
pieces, but that way, it will trickle down to the younger 
grades and that sort of thing.
    And last, actually assisting with instruction. A lot of our 
workforce is 40 to 65 years old, 38 to 65, something like that, 
so we are all kind of looking at retirement in the not too 
distant future and I think that is an excellent resource for 
assisting with the actual teaching of nondestructive testing in 
particular, because it is one of those areas that it is easier 
to teach if you have actually been there and done that.
    So I would just like to offer that those things, I think, 
are important for the business partner. Thank you.
    The Chairman. Thank you. I want to thank all of you for 
participating. I am hoping that your help will not end at this 
moment but will continue on through some additional comments 
that you may have had based on what others may have said, or 
ideas that you may have gotten, or ideas that you already had 
that you didn't get a chance to share.
    I like having a roundtable as opposed to a hearing. Many of 
you may not have been at a hearing. Hearing is an oxymoron.
    [Laughter.]
    We invite in and it is kind of a Republicans versus 
Democrats atmosphere where each of us get to invite some 
witnesses and then the part that we hear is the part that we 
like from the witnesses that we invited. We spend our time, 
instead of listening, trying to come up with questions that we 
can either ask the others to embarrass them or ours to continue 
to emphasize our point.
    The participation is about the same, but with this kind of 
a format, we get a lot of ideas. What I was writing down were--
sometimes it wasn't what you said, it was an idea that I got 
because of what you said. A lot of times, it was some phrasing 
that you used, which I will use in the future. The Senate rule 
is the first two times, we have to attribute it.
    [Laughter.]
    Often not observed.
    [Laughter.]
    You have just been a font of information. I go back to 
Wyoming most weekends and drive around the State and do kind of 
one-on-one polls on how we are doing out here. I have got to 
say, though, that even in my travels back there, a lot of what 
I get to hear is what doesn't work, and so I appreciate these 
roundtables where we get to hear what does work. That is really 
what we want to duplicate. But a lot of times, we already know 
what doesn't work and a lot of times it is through a lot of 
repetition. Sometimes, that is what it takes for us, too.
    But this has just been extremely helpful and we will keep 
the record open longer, both so that you can contribute and so 
that staff members here that have questions they want to have 
followed up on, and so that my questions can be followed up on, 
as well.
    So I really appreciate the participation. I think the last 
time that we had a real surge in education in the country was 
when Sputnik was launched, which will be 50 years ago next 
year. The engineers and scientists and innovators that came out 
of that, we have been living on for a long time. Now, we have 
got to make sure that the surge keeps going for our country to 
have the kind of competitiveness that we have grown used to and 
so that the next generation of kids can have the same benefits 
as the previous generations of kids.
    I really appreciate all that you are doing to make that 
happen. Thank you for being here today.
    That concludes the roundtable.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Kennedy

    I commend Chairman Enzi for convening today's roundtable on 
education reform in our middle and high schools, and I thank 
each of the participants for joining us.
    As a White Paper commissioned by the 2005 National 
Education Summit on High Schools stated, ``High schools are now 
the front line in America's battle to remain competitive on the 
increasingly competitive economic stage.'' Our concern is 
obvious.
    Education is the key to the Nation's competitive strength 
in the coming decades, and the key is rusty. We're falling 
behind other countries. Our schools are still competitive 
internationally through 4th grade, but by the end of elementary 
school, we're losing out. Of 100 students in 9th grade, only 68 
will graduate from high school in 4 years, and only 40 of them 
will enroll in college, and only 18 will graduate from college 
in 6 years. Germany, France and Japan do far better, and our 
college graduation rates would be even less competitive if we 
compared the rates for 8th grade students.
    Fortunately, strategies are available to reverse these 
downward trends and enable American students to excel 
academically again. We can encourage States to align high 
school courses with college expectations, and give students the 
support they need to succeed in their coursework. Doing so will 
also reduce the $2 billion a year we spend on remedial 
education.
    We can upgrade standards and revitalize curriculums so that 
students can take more rigorous courses and learn the skills 
they need to do well in them. We can improve the training of 
teachers who teach those courses. We can advise students 
earlier about the classes they select, so that they understand 
the role of the courses they take or don't take on their future 
opportunities. We can offer more help earlier to students who 
struggle with reading and math, and other academic courses.
    Seasoned school principals and teachers know that it takes 
a strategy of prevention--not just intervention--to reduce the 
high dropout rate. We in Congress can learn from them as well.
    Sixty-five percent of today's jobs require some 
postsecondary education and all estimates show that figure will 
continue to rise. Entry level jobs increasingly require skills 
in literacy, communication, and technology. Employers expect 
employees--even recent high school graduates--to analyze 
information and solve problems in the workplace. At a minimum, 
we should require every high school program to teach these 
skills to acceptable standards.
    We've sent each of you several questions to consider for 
today's discussion. We're especially interested in learning 
more about the strategies that have built the pockets of 
excellence that exist in middle schools and high schools today. 
We'd like your thoughts on how to apply proven practices more 
widely, so that States and local school districts can improve 
the participation of all students in effective academic and 
technical coursework.
    We look forward to your ideas in these areas, and we thank 
you for joining us this morning.

       Kentucky Council on Postsecondary Education,
                                 Frankfort, Kentucky 40601,
                                                     March 2, 2006.
Ms. Lisa Schunk,
Einstein Fellow,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, D.C. 20510.

    Dear Ms. Schunk: Thank you for the opportunity to participate in 
the February 16 roundtable discussion on ``Competitiveness: Building 
and Filling the Pipeline.'' Our reform agenda in Kentucky highlights 
that very issue. I am submitting my remarks and some additional 
materials, as requested, into the record.
    Kentucky's education reform is built on a comprehensive legislative 
foundation that drives funding and strategic initiatives. In 1990, 
Kentucky was among the first States to embark on groundbreaking 
standards-based reform in K-12 education. In 1997, the Kentucky General 
Assembly passed the Kentucky Postsecondary Education Improvement Act. 
This legislation called for improving the standard of living and 
quality of life of all Kentuckians by creating an adequately funded, 
seamless system of education so that Kentuckians would meet or exceed 
the national average in educational attainment by 2020. In 2000, 
additional legislation set the stage for restructuring adult education 
and channeling it into the postsecondary system. Kentucky was unique in 
the Nation in creating a structure that focused adult education on 
attracting undereducated adults back into the education system to 
prepare and enroll them in college. Kentucky's P-16 pipeline 
strategically includes both traditional P-12 and nontraditional adult 
students. Most recently, the Kentucky Innovation Act of 2000 formalized 
in legislation the role of postsecondary education in expanding the 
capacity for knowledge-driven research and development in Kentucky to 
attract businesses, create jobs, and prepare a skilled workforce for a 
globally competitive, 21st century economy.
    From this policy framework, which continues to drive funding and 
strategic initiatives, the Council on Postsecondary Education 
(Kentucky's postsecondary education coordinating board) has developed, 
in forums and meetings with constituencies across the Commonwealth, a 
``Public Agenda for Higher Education'' that includes an accountability 
system organized around five questions. These five questions focus 
postsecondary education on outcomes (``key indicators'') that will 
produce better lives for Kentuckians and address the goals for 
postsecondary reform http://cpe.ky.gov/planning/strategic/default.htm.

    <bullet> Are more Kentuckians ready for postsecondary education?
    <bullet> Is Kentucky postsecondary education affordable for its 
citizens?
    <bullet> Do more Kentuckians have certificates and degrees?
    <bullet> Are college graduates prepared for life and work in 
Kentucky?
    <bullet> Are Kentucky's people, communities, and economy 
benefiting?

    The first of the five questions is of particular interest for this 
roundtable discussion. Kentucky's postsecondary institutions are held 
accountable for their role in ensuring the preparation of traditional 
and adult students for college. Although it has taken time, the public 
agenda has shifted the conversation in Kentucky beyond the ``blame 
game,'' where each level of education blames its failures on the 
inadequacies of the preceding level (e.g., employers blame colleges, 
which blame high schools, which blame middle schools, which blame 
elementary schools, which blame families). Through a variety of 
strategies over nearly a decade, Kentucky's education leaders are 
coming to understand that no part of the system can truly succeed if 
another fails.
    Kentucky's P-16 agenda to build our educational pipeline has 
encompassed several initiatives.

    <bullet> A State P-16 Council was established in 1999 as a 
voluntary collaboration between the P-12 Kentucky Board of Education 
and the Kentucky Council on Postsecondary Education. Today, the P-16 
Council includes representatives from all education sectors, the 
State's financial aid agency, government, and the private sector. The 
P-16 Council has focused on alignment of standards and assessment 
across the system, teacher quality, and strategies that support the 
transition of traditional and adult students upward through the system. 
Twenty-one local P-l6 councils have been created throughout the State 
under the guidance of the State council to provide grassroots support 
for the P-16 agenda.
    <bullet> In 2000, the State launched ``Go Higher Kentucky,'' a 
highly successful college access marketing campaign, to address 
cultural barriers to educational advancement and to convince all 
Kentuckians that postsecondary education should be in their future. The 
campaign has received national and regional recognition for its quality 
and success. Kentucky is now working with the Southern Regional 
Education Board and the Southern Governor's Association to assist 
States throughout the south in developing similar campaigns. It also 
has worked with other States across the Nation. The campaign produced 
record numbers of new adult learners pursuing the GED and college and 
contributed to record college enrollments in Kentucky during this 
period. A Go Higher Kentucky Web portal is in place to provide what 
students need to plan for, prepare for, and pay for college.
    <bullet> In 2000, Kentucky successfully applied for a Federal GEAR 
UP grant that provided $21 million in Federal and matching State funds 
to work with low-income middle/high school students and their parents 
and teachers to motivate, prepare, and successfully enroll them in 
college. In 2005, Kentucky secured a second GEAR UP grant--more than 
doubling the resources available for this program. P-12, postsecondary, 
agency, and private sector groups have partnered through GEAR UP to 
address P-16 challenges for low-income students. To date, the program 
has produced academic achievement gains in our poorest schools that 
exceed State averages, provided scholarship guarantees to students who 
meet program requirements, and increased the number of low-income 
students and their parents preparing for college attendance.
    <bullet> Kentucky's focus on alignment led to its selection as one 
of the initial five pilot States participating in the ``American 
Diploma Project.'' Sponsored by Achieve, The Education Trust, and other 
national groups, the first ADP pilot produced a clear set of standards 
defining what every high school and adult student should know in math 
and English to succeed in college or the skilled workplace. Based on 
that work, Kentucky secured agreement from all of its public 
postsecondary institutions on a common set of standards and a common 
assessment for guaranteed placement into credit-bearing mathematics and 
English courses across the community college and university system. 
Kentucky's Statewide Public Postsecondary Placement Policy clearly 
defines what ``college readiness'' in these core subject areas entails, 
and we are communicating this across the system (see Statewide Public 
Postsecondary Placement Policy brochure). Kentucky currently spends 
more than $24 million per year addressing the needs of underprepared 
college students. Working with our middle and high school and adult 
learning center partners to implement these standards should reduce 
these costs and increase student success.
    <bullet> For the last 6 years Kentucky has assembled teams of key 
faculty and staff from across university programs (e.g., education and 
arts and sciences colleges) to develop and implement plans to increase 
the quality of teacher preparation and professional development 
programs. The Council on Postsecondary Education is currently working 
with the State teacher standards board, the legislature, and the Office 
of the Governor to implement a redesign of these programs for teachers 
and school leaders following best practices identified by the SREB and 
other national reports. Through the work of the State's certification 
board, the P-12 system, and postsecondary education, Kentucky's teacher 
quality has improved as indicated by numerous national assessments and 
recognitions. Much more needs to be done, however--and it will be--to 
address teacher shortages and assess the effectiveness of teacher 
preparation and professional development programs in producing student 
achievement gains tied to college and workplace readiness.
    <bullet> The Kentucky Community and Technical College System, 
created in the postsecondary reform legislation, plays a central role 
in implementing the P-16 agenda. As a primary postsecondary access 
point for many students, the KCTCS has invested funds in high school 
partnerships to provide early assessment of students' college readiness 
and created successful early and middle college models to ease the 
transition from high school to college. It has been the primary 
provider of dual enrollment opportunities for high school students. 
Statewide, the number of high school students dually enrolled in 
college courses has grown from 9,321 in 2001-02 to 18,291 in 2004-05.

    Several recent developments hold great promise to accelerate the 
success of P-16 work in Kentucky and address current challenges.

    <bullet> In 2005, the Business Forum, made up of important private 
sector leaders, many of whom spearheaded the 1990 Kentucky Education 
Reform Act, issued a comprehensive report identifying and supporting a 
range of initiatives in education, particularly focusing on 
strengthening P-16 connections and programs. The support of the 
business community will be important in sustaining the political will 
to advance P-16 initiatives.
    <bullet> In early 2006, the Kentucky Board of Education, following 
the recommendation of the State P-16 Council, voted to implement a 
single rigorous curriculum for all students, raising the State's high 
school graduation requirements and eliminating the ``general track'' 
diploma. Assessment standards also are being revised, in response to 
the American Diploma Project recommendations for English and 
mathematics, to prepare all high school graduates for college and 
skilled employment. The assessment system also will provide, for the 
first time, student-unit-level data that will better track individual 
student achievement across the system. Kentucky Adult Education is 
revising its curriculum to align with ADP benchmarks and Kentucky's 
Statewide Public Postsecondary Placement Policy.
    <bullet> The State acquired a new Federal GEAR UP grant that will 
allow it to double its capacity to implement successful programs for 
low-income students developed in its first grant. Also, funding is 
being put in place for the next phase of the ``Go Higher Kentucky'' 
college access campaign to reach Kentuckians who still do not have 
college on their radar screen or who believe college is beyond their 
reach.
    <bullet> A recent study of postsecondary affordability has produced 
funding and proposals for new scholarship programs that address the 
needs of students for whom affordability was identified as a barrier.
    <bullet> Finally, in late 2005, for the first time, Kentucky's key 
education agencies, under the leadership of the Education Cabinet, 
submitted a joint budget request to integrate data and virtual learning 
programs. The request was submitted by the Governor for approval by the 
legislature. If funded, this program will allow systematic assessment 
of student success across the P-l6 system, identification of the 
factors that predict success at every level, and coherent 
implementation of effective virtual learning programs by all agencies. 
We anticipate this joint proposal will be the first of many. It 
demonstrates the commitment of Kentucky's education system to the logic 
of an integrative, systemic P-16 approach to education issues.

    Again, I thank you for the opportunity to share some of Kentucky's 
initiatives with the Senate committee and your other guests.
            Sincerely,
                                         Thomas D. Layzell,
                                                         President.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 11:50 a.m., the committee was adjourned.]

                                    

      

</pre></body></html>
